Appendix la
STATE OF INDIANA
COURT OF APPEALS
EQUAL JUSTICE UNDER LAW
SABRINA GRAHAM,
Appellant(s),
v.

Cause No. 18APL-02262

THOMAS WININGER,
Appellee(s)
CERTIFICATION
STATE OF INDIANA

)
)SS:

Court of Appeals

)

I, Gregory R. Pachmayr, Clerk of the Supreme Court,
Court of Appeals and Tax Court of the State of Indiana,
certify the above and foregoing to be a true and complete
copy of the Opinion of said Court in the above entitled case.
IN WITNESS WHEREOF, I hereto set my hand and
affix the seal of THE CLERK of said Court, at the City of
Indianapolis, this on this the 9th day of October, 2019.

/s/Gregorv R. Pachmavr
Gregory R.Pachmayr
Clerk of the Supreme Court

Appendix 2a
IN THE COURT OF APPEALS OF INDIANA
No. 18A-PL-2262
Memorandum Decision
Pursuant to Ind. Appellate Rule 65(D), this Memorandum
Decision shall not be regarded as precedent or cited before
any court except for the purpose of establishing the defense
of res judicata, collateral estoppel, or the law of the case.
(Filed Jul 02, 2019, 7:48am CLERK Indiana Supreme
Court, Court of Appeals, and Tax Court)
Sabrina Graham,
Appellant-Plaintiff,
v.
Thomas Wininger,
Appellee -Defepdan t.

July 2, 2019
Court of Appeals Case No.
18A-PL-2262
Appeal from the Martin Circuit
Court
The Honorable Lynne E. Ellis,
Trial Court Cause No.
51C011512-PL-243

Tavitas, Judge.
Case Summary
[1] Sabrina Graham, pro se, appeals the trial court’s
judgment regarding her claim against her brother,
Thomas Wininger. We affirm.

Appendix 3a
Issues
[2] Graham raises numerous issues, which we restate as^
Whether the trial court’s
I.
judgment in favor of
Wininger regarding the
alleged oral agreement is
contrary to law.
II. Whether the trial court
properly conducted the
summary judgment and bench
trial proceedings.
Facts
[3] This litigation concerns a family dispute over payment
for services allegedly rendered to a sibling. Graham and
Wininger are sister and brother. Graham is a registered
nurse, and Wininger is a veteran, who was injured
during his service in the Army in the late 1970’s.
Wininger sustained a traumatic brain injury in a fall,
which caused seizures, memory loss, and behavioral
issues. According to Graham, between 1998 and 2013,
she assisted Wininger with filing claims for veterans’
benefits and social security benefits, arranging
medication and healthcare, and building a house.
[4] Graham claims that, in 2001 or 2002, Graham and
Wininger reached an oral agreement whereby, in
exchange for Graham’s assistance, Wininger agreed to
pay Graham thirty percent of any lump sum payment of
veterans’ benefits that Wininger received. After
Wininger received a lump sum payment in 2006,
Wininger repaid Graham for funds that she spent
building his house except for approximately $600.00.
Graham contends that they also renegotiated their
arrangement. According to Graham, Wininger agreed to
give Graham fifty percent of any lump sum payment of
veterans’ benefits if he received an earlier effective date

Appendix 4a
of his benefits, which would result in a larger lump sum
payment. In 2013, Wininger received a lump sum
payment of veterans’ benefits of $442,148.00. Wininger
was represented by Disabled American Veterans
(“DAV”) during the proceedings regarding the veterans’
benefits. Graham argues that she is entitled to payment
of $221,574.00 from Wininger, which Wininger has
refused to pay.
[5] In June 2015, Graham filed a complaint against
Wininger alleging the following claims^ (l) conversion;
(2) fraud; (3) constructive fraud; (4) promissory estoppel
and misrepresentation; (5) unjust enrichment and
quantum meruit; (6) breach of oral contract; and (7)
implied, constructive or quasi contract.1 Graham also
requested treble damages and attorney fees. Graham
was represented by Attorney Gregory Black during the
majority of the proceedings.
[6] In December 2016, the trial court held a bench trial. At
the end of Graham’s case-in-chief, Wininger moved for
judgment on the evidence pursuant to Indiana Trial
Rule 50. Graham argued that Trial Rule 50 did not
apply in bench trials, and Wininger argued that, if a
ruling under Trial Rule 50 was inappropriate, he was
entitled to summary judgment under Trial Rule 56(B).
The trial court denied Wininger’s motion for judgment
under Trial Rule 50 and allowed Wininger to file a
motion for summary judgment. During a hearing on
Wininger’s motion for summary judgment, the trial
court seemed inclined to find genuine issues of material
fact, which would have precluded summary judgment.
Wininger then filed a motion to withdraw his motion for
summary judgment. Over Graham’s objection, the trial

*The complaint was originally filed in Hendricks County. It was later
transferred to Martin County.

Appendix 5a
court granted Wininger’s motion to withdraw the motion
for summary judgment on July 28, 2017. The trial court
then set a date for the bench trial to resume.
[7] Graham’s counsel filed a motion to withdraw, and
Graham, pro se, then filed a motion for summary
judgment. In response, Wininger filed a motion for
extension of time, a motion for leave to take Graham’s
deposition, and a motion to vacate the trial date. The
trial court granted Wininger’s motions. After Wininger
filed a response to Graham’s motion for summary
judgment and Graham filed a reply, the trial court
denied Graham’s motion for summary judgment on
February 28, 2018. The trial court then set the matter
for the bench trial to resume.
[8] On May 21, 2018, the bench trial was completed. The
trial court then entered the following order:
1. Judgment in favor of the Plaintiff,
Sabrina Graham, in the amount of
Six Hundred Dollars ($600.00) and
against Defendant, Thomas
Wininger, for monies due and owing
to the Plaintiff which she expended
for the completion of the building of
Defendant’s home.
2. Judgment in favor of Defendant,
Thomas Wininger, and against
Plaintiff, Sabrina Graham, for all
other claims and rehef requested in
Plaintiffs Complaint.
Appellant’s App. Vol. II p. 29. Graham now appeals.
Analysis
[9] Graham appeals the trial court’s denial of her claim for
half of Wininger’s lump sum recovery of veterans’
benefits. Before addressing her arguments, we note that
“a pro se litigant is held to the same standards as a
trained attorney and is afforded no inherent leniency

Appendix 6a
simply by virtue of being self-represented.” Zavodnik v.
Harper, 17 N.E.3d 259, 266 (Ind. 2014). “An appellant
who proceeds pro se is held to the same established
rules of procedure that trained legal counsel is bound to
follow and, therefore, must be prepared to accept the
consequences of his or her action .’’Perry v. Anonymous
Physician 1, 25 N.E.3d 103, 105 n.l (Ind. Ct. App. 2014),
trans. denied, cert, denied, 136 S. Ct. 227 (2015).
[10/Although we prefer to decide cases on their merits,
arguments are waived where an appellant’s
noncompliance with the rules of appellate procedure is
so substantial it impedes our appellate consideration of
the errors. Id. Indiana Appellate Rule 46(A)(8)(a)
requires that the argument section of a brief “contain
the contentions of the appellant on the issues presented,
supported by cogent reasoning. Each contention must be
supported by citations to the authorities, statutes, and
the Appendix or parts of the Record on Appeal relied on .
. . .” We will not consider an assertion on appeal when
there is no cogent argument supported by authority and
there are no references to the record as required by the
rules. Id. We will not become an advocate for a party or
address arguments that are inappropriate or too poorly
developed or expressed to be understood. Id.
[ii]Because Graham did not prevail at trial, she appeals
from a negative judgment.2 A judgment entered against

2 Graham very briefly mentions the trial court’s lack of findings of fact
and conclusions of law. Although Graham’s counsel filed a written
request for findings of fact and conclusions of law pursuant to Indiana
Trial Rule 52 and the parties submitted proposed findings, the trial
court failed to issue findings of fact and conclusions of law. A better
practice here would have been for the trial court to issue findings of fact
and conclusions of law as required by Trial Rule 52, and we urge the
trial court to issue the required findings of fact and conclusions of law
in the future. Graham, however, made no argument in her brief
regarding this issue and cites no authority, and accordingly, the issue is
waived. »S<?e Ind. Appellate Rule 46(A)(8)(a). In fact, both parties apply

Appendix 7a
a party who bore the burden of proof at trial is a
negative judgment. Smith v. Dermatology Assocs. of
Fort Wayne, P.C., 977 N.E.2d 1, 4 (Ind. Ct. App. 2012).
On appeal, we will not reverse a negative judgment
unless it is contrary to law. Id. To determine whether a
judgment is contrary to law, we consider the evidence in
the light most favorable to the appellee, together with
all the reasonable inferences to be drawn therefrom. Id.
A party appealing from a negative judgment must show
that the evidence points unerringly to a conclusion
different than that reached by the trial court. Id. We
may neither reweigh the evidence nor judge the
credibility of the witnesses. OVRS Acquisition Corp. v.
Cmty. Health Servs., Inc., 657 N.E.2d 117, 125 (Ind. Ct.
App. 1995), trans. denied.
I. Oral Agreement
[12]Each of Graham’s claims listed in her complaint, along
with her requests for treble damages, punitive damages,
and prejudgment interest, depends on the existence of
an oral agreement between Graham and Wininger for
Wininger to pay fifty percent of any lump sum payment
of veterans’ benefits to Graham in exchange for services
performed by Graham.3
[13]‘“[W]here one accepts valuable services from another the
law implies a promise to pay for them.’”4 Estate of

a negative judgment standard of review. See Appellee’s Br. pp. 22-23;
Appellant’s Reply Br. p. 9. We will, therefore, utilize a negative
judgment standard of review.
3 The trial court did award Graham a judgment for $600.00 to
reimburse her for expenses she paid to build Wininger’s residence.
Neither party contests that judgment, and we do not address it further.
4“[W]here the parties are family members living together, and the
services are rendered in the family context, no implication of a promise
to pay by the recipient arises.” Estate oi'Prickett, 905 N.E.2d at 1012
(quoting Schwartz, 773 N.E.2d at 355). Instead, in these circumstances,
the rebuttable presumption is that services are gratuitous. “The public

Appendix 8a
Prickett v. Womersley, 905 N.E.2d 1008, 1012 (Ind.
2009) (quoting Schwartz v. Schwartzrs, 773 N.E.2d 348,
354 (Ind. Ct. App. 2002). “Where services are performed
by one not a member of the recipient’s family, an
agreement to pay may be imphed from the relationship
of the parties, the situation, the conduct of the parties,
and the nature and character of the services rendered.”
Cole v. Cole, 517 N.E.2d 1248, 1250 (Ind. Ct. App. 1988).
No one, however, can be held to pay for services unless
there is an express or imphed promise to pay. Crump v.
Coleman, 181 Ind. App. 414, 418, 391 N.E.2d 867, 870
(1979). “There must be a request and either an express
agreement to payor circumstances from which a
promise can be implied.” Id. “Whether the services or
payments were rendered gratuitously or not is a
question for the trier of fact.” Cole, 517 N.E.2d at 1250.
[i4]We also note that, in general, the existence of a contract
is a question of law. Barrand v. Martin, 120 N.E.3d 565,
572 (Ind. Ct. App. 2019). The basic requirements of a
contract are offer, acceptance, consideration, and a
meeting of the minds of the contracting parties. Id. “‘For
an oral contract to exist, parties have to agree to all
terms of the contract.’” Id. (quoting Kelly v. Levandoski,
825 N.E.2d 850, 857 (Ind. Ct. App. 2005), trans. denied).
If a party cannot demonstrate agreement on one
essential term of the contract, then there is no mutual
assent and no contract is formed. Id. “The party urging
the validity of a contract bears the onus of proving its
existence.” OVRSAcquisition Corp., 657 N.E.2d at 125.
“When the evidence as to the terms of an oral contract is
conflicting, or the meaning doubtful, it is for the [trier of
fact] to ascertain the intention of the parties” and to
determine the terms of the contract. Annadall v. Union

policy advanced by this presumption is that family members ‘have
reciprocal, natural, and moral duties to support and care for each

Appendix 9a
Cement & Lime Co., 165 Ind. 110, 74N.E. 893, 894
(1905).
[15] Graham bore the burden of demonstrating an oral
contract between Graham and Wininger. Graham
claims that, in 2001 or 2002, Graham and Wininger
reached an oral agreement whereby, in exchange for
Graham’s assistance, Wininger agreed to pay Graham
thirty percent of any lump sum payment of veterans’
benefits that Wininger received. After Wininger received
a lump sum payment in 2006, Wininger repaid Graham
for most of the funds that she spent building his house.
According to Graham, they renegotiated their
arrangement, and Wininger agreed to give Graham fifty
percent of any lump sum payment of veterans’ benefits
if he received an earlier effective date of his benefits,
which would result in a larger lump sum payment.
Wininger, on the other hand, testified that he did not
agree to this arrangement.5
[16] This case demonstrates the inherent difficulty in
proving oral contracts. Our standard of review requires
that we view the evidence in a fight most favorable to
Wininger. Graham’s arguments are merely a request
that we reweigh the evidence as to the existence of an
oral contract and the credibility of the parties, which we
cannot do. Graham failed to meet her burden of
demonstrating an oral contract between Graham and
Wininger. See, e.g., Barrand, 120 N.E.3d at 573 (“The
trial court, therefore, did not err by finding that because
Mother and Father had different understandings of

5 Graham argues that Wininger’s testimony is incredibly dubious.
“Within the narrow confines of the incredible dubiosity rule, a court
may impinge upon a jury’s function to judge the credibility of a
witness.” Dallas v. Cessna, 968 N.E.2d 291, 298 (Ind. Ct. App. 2012)
(citing Love v. State, 761 N.E.2d 806, 810 (Ind. 2002)). This rule,
however, does not apply in civil actions. Id. at 299.

Appendix 10a
their purported agreement, they did not have an
enforceable agreement regarding Father’s child support
obligation.”). Accordingly, the trial court’s judgment is
not contrary to law.
I Procedural Issues
A Bias of Trial Court
[17/Graham argues that the trial court was biased against
her because she felt “personally attacked, belittled,
embarrassed, and humiliated by the public statements”
of the trial court. Appellant’s Br. p. 41. Adverse rulings
and findings by a trial judge are not sufficient reason to
believe the judge has a personal bias or prejudice. L.G.
v. S.L., 88 N.E.3d 1069, 1073 (Ind. 2018). The law
presumes that a judge is unbiased and unprejudiced. Id.
To overcome this presumption, the moving party must
establish that the judge has personal prejudice for or
against a party. Id.
[18] Our extensive review of the record reveals no belittling
or attacking of Graham by the trial court. Rather, the
trial court was patient with Graham and Graham’s
counsel despite repeated and protracted efforts to admit
evidence that the trial court had excluded. The main
basis of Graham’s claims, however, seems to be that the
trial court repeatedly ruled against her. Adverse rulings
do not demonstrate bias or prejudice. Graham’s
argument fails.
B. Admission ofEvidence
[19] Graham takes issue with the trial court’s exclusion of
a voicemail left by Wininger allegedly offering to settle
the claim for $200,000.00. The trial court excluded the
evidence because the parties agreed there was never a
contract for Wininger to give Graham $200,000.00;
rather, the alleged agreement was for fifty percent of
the lump sum payment. Graham complains, however,
that the voicemail was an admission of the alleged
original oral agreement.

i

Appendix 11a' <
:
[20]Graham cites no relevant authority to demonstrate • 'T- . I.*1 -;i< . *
'v-'. -V'
that this evidence was admissible. In fact, Graham ^ ~ ■
cites only Indiana Trial Rule 3.6 and argues that ‘he1
1 • i■d 6’
Wininger’s admission was admissible at the bench. n+ v ■ "• x .<
trial. Admissions under Trial Rule 36 are not ' * .r r>
.
*1
automatically admissible at a trial. Kerkhof v. r ‘
t - > J' (, ■
Kerkhof, 703 N:E.2d 1108, 1111 (Ind. Ct; App.'1998).“[A]n admission niay be offered into evidence at the 1 t;i
hearing where the facts established in that admission; ' ‘
are not subject'to dispute, but the admissibility of the
"■
( luj'.
facts may be challenged.” M Graham, consequently,' * •
must demonstrate the admissibility of the voicemail. >• .
Graham, however, has failed to make a cogent .
argument establishing the admissibility of the , . ■ '
voicemail. See Ind-Appellate Rule 46(A)(8)(a).
' * i l
. '1*
[21] Waiver notwithstanding, even if the evidence was * -1
admissible, any error in its exclusion was harmless.1-' *-1'.
Graham does not argue that the voicemail resulted in a'- V If
contract; rather, she argues it was simply more evidence
Aj' *
r_.
1
of an oral agreement for her to receive fifty percent of
Wininger’s lump sum award. The voicemail was merely ’• f
cumulative of other evidence presented at the bench
trial.
1
' • ■r

i

:

I

i
I
i

!

■*»

"a *

..

'i

i

I

::

’

’ -

'1 -Ti

” ; >U:i

[22]The remainder of Graham’s arguments pertain to the _
conduct of the" summary judgment-and bench trial Ll , ,
proceedings. “Provided that a trial court fulfills itstduty ^
to conduct trials expeditiously and consistent with the „
orderly administration of justice, a trial court has ;■
discretion to conduct the proceedings before it in any,r/
manner that it sees fit.” J.M. v. N.M., 844 N.E.2d 590,\ 4 '
601 (Ind. Ct. App. 2006), traxis. denied. “We review the
decisions that a trial court makes regarding the conduct
of the proceedings for an abuse of that discretion.” Id.
. t

[23]Here, Graham presented her case in-chief, and
Wininger moved for judgment on the evidence pursuant (

l

]
*

*

t

i;.-|

.. i

»1

i

I

*

■

C. Summary Judgment and Bench Trial Proceedings
i , : J■r

{

I

!

!
I

